Report No. D-2009-113                  September 30, 2009




            Medical Equipment Used to Support
              Operations in Southwest Asia
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AOR                           Area of Responsibility
ASD(HA)                       Assistant Secretary of Defense (Health Affairs)
CJTH                          Combined Joint Theater Hospital
DLA                           Defense Logistics Agency
DMLSS                         Defense Medical Logistics Standard Support
MTF                           Military Treatment Facility
PBUSE                         Property Book Unit Supply Enhanced
SAMS–E                        Standard Army Maintenance System-Enhanced
TAMMIS                        Theater Army Medical Management Information System
USCENTCOM                     U.S. Central Command
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704


                                                                               September 30,2009

MEMORANDUM FOR CHAIRMAN, JOINT CHIEFS OF STAFF
               COMMANDER, U.S. CENTRAL COMMAND
               ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               NA VAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 Medical Equipment Used to Support Operations in Southwest Asia
           (Report No. D-2009-1l3)

We are providing this report for review and comment. We requested management comments on a
draft report when preparing the final report. The Joint Chiefs of Staff and U.S. Air Forces Central
Command did not respond to the draft report; however, we considered comments from the U.S.
Central Command, Assistant Secretary of Defense (Health Affairs), Army, Navy, and Defense
Logistics Agency.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. Because of
management comments, we revised Recommendation AI . We request that the Joint Chiefs of
Staff, U.S. Central Command, and Army and Air Force Central Commands provide comments on
the revised recommendation by October 30, 2009. We also require comments on
Recommendation A.2. from the·Joint Chiefs of Staff, U.S. Central Command, and Army and Air
Force Central Commands. We also request additional comments on Recommendation A3. from
the Surgeon General of the Army. We request comments by October 30, 2009.

Please provide comments that conform to the requirements of DOD Directive 7650.3. If possible,
send your comments in electronic format (Adobe Acrobat file only) to audyorktown@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We cannot accept the I Signed I symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

Site visits in the U.S. Central Command area of responsibility presented numerous administrative
and logistical challenges. We extend our appreciation to Military Department medical and
logistics personnel for their assistance, cooperation, and support. Please direct questions to
Michael A Joseph at (757) 872-4698 .




                                             Principal Assistant Inspector General
                                             for Auditing
Report No. D-2009-113 (Project No. D2008-D000LF-0093.000)                         September 30, 2009

               Results in Brief: Medical Equipment Used to
               Support Operations in Southwest Asia


What We Did                                            What We Recommend
The objective of the audit was to determine            We revised our recommendation. The
whether controls were in place for acquiring           Commander, U.S. Central Command should
mission-essential medical equipment and                coordinate and establish a working group to
whether the recording and reporting of medical         develop controls that will ensure the theater lead
equipment was accurate and complete.                   agent has oversight of all medical equipment
                                                       and repair part procurements regardless of
We evaluated medical equipment                         source of supply. The Commander should also
accountability, inventory, maintenance, and            ensure the installation and use of the Defense
procurement information at six military                Medical Logistics Standard Support system
treatment facilities and five medical logistics        equipment management and maintenance
activities in Afghanistan, Iraq, and Qatar. At         submodules at all military treatment facilities in
those 11 locations, we analyzed and compared           the Command’s area of responsibility.
information to determine whether controls and
records were in place to provide continuity and        The Assistant Secretary of Defense (Health
oversight of medical equipment and repair part         Affairs) should coordinate with the U.S. Army
accountability, maintenance, and procurement           Surgeon General on the implementation plan for
functions in theater.                                  Military Health System Defense Medical
                                                       Logistics Standard Support system upgrades.
What We Found                                          Finally, the U.S. Army Central Command
The theater lead agent for medical logistics           should provide a status update and
supports military treatment facilities and             implementation plan on the management
medical logistics activities; however, the lead        initiatives that would improve the medical
agent cannot effectively perform life-cycle            equipment and repair part procurement process.
management because it does not have visibility
or oversight of all theater-wide medical               Management Comments and
equipment and repair part procurements.                Our Response
                                                       The Commander, U.S. Central Command did
The theater lead agent, Army, Marine Corps             not agree with the original recommendation on
military treatment facilities, and logistics           the development of a joint theater procurement
activities do not use a standard data system for       process. We revised the recommendation.
tracking medical equipment procurements,               Management generally agreed with the other
inventory, and maintenance information. We             recommendations to coordinate the installation
identified an internal control weakness in the         and implementation of the Defense Medical
recording and reporting of medical equipment           Logistics Standard Support system in theater
procurement, accountability, and maintenance           and to provide an update on management
transactions. Several management initiatives           initiatives. See the recommendations table on
should improve the medical equipment                   page ii for additional comments required.
accountability and procurement process.

                                                   i
Report No. D-2009-113 (Project No. D2008-D000LF-0093.000)                September 30, 2009

Recommendations Table
          Management                     Recommendations       No Additional Comments
                                       Requiring Comment             Required
Chairman, Joint Chiefs of Staff    A.1., A.2.
Commander, U.S. Central            A.1., A.2.
Command
Assistant Secretary of Defense                              A.1., A.2., A.3.
(Health Affairs)
Surgeon General of the Army        A.3.                     A.2.
Commander, U.S. Army Central       A.1., A.2.
Command
Commander, U.S. Naval Forces                                A.1., A.2.
Central Command
Commander, U.S. Marine Corps                                A.1., A.2.
Forces Central Command
Commander, U.S. Air Forces         A.1., A.2.
Central Command
Director, Defense Logistics Agency                          A.1., A.2.

Please provide comments by October 30, 2009




                                                ii
Table of Contents

Results in Brief	                                                        i


Introduction	                                                            1      


       Objectives                                                        1      

       Background                                                        1       

       Review of Internal Controls                                       3


Finding. Life-Cycle Management of Medical Equipment in Southwest Asia    5


       Sources of Supply for Medical Equipment and Repair Parts in the   5

         USCENTCOM Area of Responsibility 

       Need for an Interoperable Information System in Theater            7

       Medical Equipment Accountability and Maintenance                  9

       Management Initiatives                                            12          

       Conclusion                                                        13          

       Management Comments on the Introduction and Finding               14 

         and Our Response 

       Recommendations, Management Comments, and Our Response            14 


Appendices

       A. Scope and Methodology        	                                 22          

            Prior Coverage                                               24 

       B. USCENTCOM Area of Responsibility 	                             26 

       C. Medical Equipment and Repair Part Approval Process 	           27 

       D. Timeliness of Medical Equipment Procurements 	                 29 

       E. USCENTCOM Medical Inventory and Maintenance 	                  31 

            Data Systems 

       F. Discussion of Management Comments on the 	                     32 

            Introduction and Finding 

       G. Categories of Medical Equipment Reviewed 	                     34 


Management Comments

       U.S. Central Command                                              35          

       Assistant Secretary of Defense (Health Affairs)                   38 

       Assistant Secretary of the Navy                                   42          

          (Manpower and Reserve Affairs) 

       U.S. Army Medical Command 	                                       48 

       U.S. Army Central Command                                         51          

       Defense Logistics Agency                                          53

Introduction
This report addresses the accountability, maintenance, and procurement processes at six
military treatment facilities (MTFs) and five medical logistics activities in Afghanistan,
Iraq, and Qatar.

Objectives
Our overall objective was to evaluate the internal controls over medical equipment used
to support operations in Southwest Asia. Specifically, we determined whether controls
were in place for acquiring mission-essential medical equipment. We also determined
whether the recording and reporting of medical equipment assets was accurate and
complete. As part of the medical equipment and repair part procurement process, we
reviewed the systems and processes used to provide medical equipment support in the
U.S. Central Command (USCENTCOM) area of responsibility (AOR). We also
reviewed the impact and relationship of medical equipment accountability to medical
equipment maintenance support. See Appendix A for the scope and methodology and
prior coverage related to this report. A map of the USCENTCOM AOR is at
Appendix B.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits . . . to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.”

Background
The mission of the Military Health System is to provide optimal health services in
support of our nation’s military mission. The Military Health System provides a
comprehensive medical capability to military operations, natural disasters, and
humanitarian crises around the world and ensures delivery of world-class health care to
all DOD Service members and retirees, their families, and other eligible beneficiaries.
When forces first deployed to the USCENTCOM AOR, the Military Health System was
equipped to provide medical care for young and healthy U.S. and coalition forces. MTF
operations have expanded to a sustainment mission, which includes delivery of health
care to U.S. and coalition forces, U.S. Government civilians, contractors, local nationals,
third-country nationals, and multinational government personnel.

In the USCENTCOM AOR, we visited six MTFs. The MTFs included three Army
Combat Support Hospitals, one Air Force Theater Hospital, a Combined Joint Theater
Hospital (CJTH), and a Marine Corps Expeditionary Medical Unit. We also visited five
medical logistics activities that included the Army medical logistics theater lead agent;


                                              1

one Army medical logistics brigade, battalion, and company; and a Marine Corps medical
logistics company. We refer to those five as medical logistics activities.

The audit addresses the Military Health System mission of helping Service commanders
create and sustain a healthy and medically prepared fighting force. This report will assist
the Military Health System in meeting the goals of its strategic plans. The audit
addresses the Military Health System Human Capital Strategic Plan goal of providing
globally accessible health and business information to enhance mission effectiveness.
The audit also supports the Military Health System Strategic Plan goal of enhancing the
deployable medical capability and force medical readiness by reducing the time from
“bench to battlefield” for more effective mission-focused products, processes, and
services.

USCENTCOM Medical Logistics Management
In February 2006, the Chairman of the Joint Chiefs of Staff designated the U.S. Army
Medical Materiel Center - Southwest Asia as the theater lead agent for medical materiel.
The mission of the theater lead agent is to provide medical logistics support to the
USCENTCOM AOR and includes medical logistics support to MTFs during hostility and
sustainment operations. As the theater-level distribution node for medical logistics in the
USCENTCOM AOR, the theater lead agent provides medical supply-chain planning,
storage, and distribution of medical equipment and repair parts. The theater lead agent is
also the lead procurement agent for acquiring medical equipment and associated repair
parts and for performing medical equipment maintenance.

Joint Publication 4-02, “Health Service Support,” October 31, 2006, states that the theater
lead agent serves as the single point of contact between supported customers and
numerous national-level industry partners. It also states that the theater lead agent is
normally responsible for the provision of all core medical logistics functions required to
support health services for the forces. Medical logistics functions include medical supply
and medical equipment maintenance.

In June 2007, USCENTCOM outlined a life-cycle management strategy for medical
equipment acquisitions to prepare and support MTFs for an extended or long-term
operational presence. As part of that strategy, USCENTCOM requires the Military
Departments to coordinate acquisition actions for new or replacement medical equipment
with the theater lead agent. The strategy requires all Service components, in coordination
with Medical Task Forces and their assigned medical facilities, to initiate a medical
equipment life-cycle management program or to validate an existing program. One of the
objectives of the program is to capture and maintain both equipment inventories and
maintenance data for each medical equipment item. Additionally, the U.S. Army Central
Command issued guidance outlining a four-phase, life-cycle management program for
systematically replacing medical equipment while simultaneously ensuring that items
procured are reliable, maintainable, and supportable.




                                             2

Expanded Medical Capability in Theater
A deploying unit’s organizational structure includes personnel and most of the equipment
needed to accomplish their assigned mission. For example, in the Army, forces deploy
with equipment listed in their Table of Organization and Equipment.1 When Army forces
initially deployed to the USCENTCOM AOR, the Table of Organization and Equipment
included medical equipment and personnel to support combat casualty care for young,
healthy U.S. and coalition forces. The other Services have a similar process for initial
deployments.

Most of the MTFs in USCENTCOM have been in the same location for 5 or more years,
and their mission has transitioned from combat casualty care to a more complex combat
casualty and sustainment mission. Over time, medical equipment has been replaced or
updated, and the MTFs have received equipment that enables them to deliver care similar
to or identical to care provided in MTFs in the United States. The Table shows
equipment for a typical combat casualty medical mission and provides examples of
additional medical capabilities at Army MTFs to meet new or expanded sustainment
missions.

     Table. Army MTF Medical Capabilities in the USCENTCOM AOR
            Combat Casualty Missiona                                Sustainment Missionb
    Blood Bank*                                             Anesthesia Pain Management
    Critical Care Medicine                                  Burn Surgery
    Emergency Medicine                                      Definitive Fracture Care
    Laboratory*                                             Dermatology
    Pathology*                                              Microbiology
    Psychiatry/Mental Health                                Pediatrics
    Radiology*                                              Prosthesis
    Trauma Surgery (General, Orthopedic,                    Vascular Surgery
     Urologic, Obstetrics and Gynecology)*
     a
       Asterisked services were expanded from original combat casualty medical mission because of

     increased level of care provided. 

     b
       New medical capabilities as a result of health care delivery to U.S. and coalition forces, U.S. 

     Government civilians, contractors, local nationals, third-country nationals, and multinational 

     government personnel. 


Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal

1
  A Table of Organization and Equipment sets the mission, organizational structure, personnel, and most of
the equipment requirements for a military unit.


                                                       3

control weakness in the accountability and procurement processes for medical equipment.
Specifically, internal controls were not in place to centrally report and record
accountability, procurement, and maintenance actions for medical equipment and repair
parts in the USCENTCOM AOR.

During the audit, we learned of several initiatives that should improve the accountability
and procurement processes for medical equipment. Additionally, implementation of the
recommendations will improve the recording and reporting of medical equipment and
repair part transactions. See the Finding for an explanation of the internal control
weakness, the management initiatives identified during the audit, and the
recommendations. A copy of the report will be provided to senior officials responsible
for internal controls in the Office of the Assistant Secretary of Defense (Health Affairs)
(ASD[HA]), USCENTCOM, and the Military Departments.




                                             4

Finding. Life-Cycle Management of Medical
Equipment in Southwest Asia
The theater lead agent supports MTFs and medical logistics operations in the
USCENTCOM AOR. Although we did not identify any instances where a lack of
medical equipment or medical equipment maintenance had impacted the delivery of
health care in theater, we believe opportunities exist to improve the life-cycle
management of medical equipment and repair parts.

Currently in the USCENTCOM AOR:

   	 The theater lead agent does not have the capability to manage all theater-wide
      medical equipment and repair part procurements.

   	 The theater lead agent, MTFs, and medical logistics activities do not have an
      interoperable and integrated system for tracking medical equipment
      procurements, inventory, and medical maintenance information.

During visits to MTFs and medical logistics activities in the USCENTCOM AOR, we
observed dedicated personnel working hard to accomplish the health care mission in spite
of time-consuming workarounds involving nonstandard systems. Coordination of all
medical equipment and repair part procurement actions and use of a theater-wide
integrated system would allow the theater lead agent and MTFs to establish and maintain
a viable life-cycle management program. An effective program would improve
procurement efficiency, reduce or eliminate redundant workloads, improve medical
equipment accountability, and provide for efficient tracking of medical equipment
maintenance.

Sources of Supply for Medical Equipment and Repair
Parts in the USCENTCOM Area of Responsibility
As part of the life-cycle management strategy issued by the USCENTCOM Command
Surgeon, MTFs and Army and Marine Corps medical logistics activities should be
coordinating and requesting medical equipment and repair part items through the theater
lead agent. However, each of the Military Departments uses procurement processes that
bypass the theater lead agent.

Army
The Army MTFs and medical logistics activities use the theater lead agent to procure
medical equipment on the unit’s current equipment authorization. An operational needs
statement is used to justify requests for medical equipment that exceed the unit’s current
equipment authorization. Operational needs statements are also used for new equipment
requests or an increase to authorized on-hand quantities. The Army process requires
numerous levels of review and approval, up to and including the Headquarters,
Department of the Army. (A discussion of the medical equipment justification process is


                                            5

at Appendix C.) As stated by Army personnel, most of these requirements are not
fulfilled or coordinated through the theater lead agent and are procured using the same
methods used to procure medical equipment for nondeployed units.

Air Force
In addition to using the theater lead agent, the Air Force MTF and CJTH use local
installation contracting support for services, supplies, or equipment that is not available
through the theater lead agent. They also use a reachback process to obtain medical
equipment and medical repair parts in a timely manner. The Air Force reachback process
is a stateside point of resupply that is to be used until mature DOD logistical supply
chains are established. Air Force guidance states that its reachback program, located in
San Antonio, is not to be used to purchase routine, nonurgent equipment items.

Local contracting and the reachback process are currently used to improve the timeliness
of medical equipment and repair part deliveries. The Air Force Central Command
Surgeon’s office approves all medical equipment requirements and identifies the best
sourcing solution for the procurement. Additionally, the Air Force Central Command
Surgeon may coordinate procurements using the same stateside procurement method used
by nondeployed units.

Marine Corps
The Marine Corps medical logistics activity in Iraq supports all Marine Corps medical
activities in country and obtains medical equipment and repair parts through the theater
lead agent, the Marine Corps Systems Command, or the reachback process at its stateside
command location. Requirements can be satisfied through the theater lead agent or by
using the same methods used to procure medical equipment for nondeployed units.

Theater Lead Agent
Bypassing the theater lead agent is a short-term solution to obtaining medical equipment
in the USCENTCOM AOR. All medical equipment procurement actions should be
coordinated through the theater lead agent to facilitate life-cycle management, to ensure
sustainability, and to enable supply-chain planning.

The theater lead agent is not able to manage or track local contracting or reachback
procurements. As a result, current and future medical equipment requirements cannot be
accurately determined, and supply-chain planning and life-cycle management efforts may
be less effective. Implementation of a joint theater medical equipment and repair part
procurement process would help to ensure that the theater lead agent has oversight over
all transactions.

As the medical mission has endured and evolved, so has the requirement to replace and
procure additional and more sophisticated medical equipment. Many of these requests
are new item requests that are nonstandard items and not cataloged in the supply system.
Personnel at MTFs and medical logistics activities stated that they experience delays in
the receipt of medical equipment and repair parts. See Appendix D for a discussion on



                                             6

information we obtained from personnel on the timeliness of medical equipment
procurements.

The theater lead agent is aware of these delays, and there are several management
initiatives to make the medical equipment and repair part procurement process more
efficient and timely. These initiatives are discussed in the section titled “Management
Initiatives.” Implementation of the management initiatives, such as the Government
purchase card or other methods of procurement, would improve the timeliness of
procuring critical medical equipment or repair parts and allow the theater lead agent to
better manage all procurements.

Need for an Interoperable Information System in Theater
The systems used by the theater lead agent, Army, Marine Corps, Air Force MTFs, and
medical logistics activities are not interoperable for recording and reporting all medical
equipment and repair part procurements, maintaining medical equipment inventory, or
recording medical equipment maintenance actions.

Theater Army Medical Management and Information System
The USCENTCOM “Healthcare Information System Use Policy,” July 14, 2008, states
that the Theater Army Medical Management and Information System (TAMMIS) is to be
used by the theater lead agent and its major forward distribution operation activities in
Iraq, Kuwait, and Afghanistan. TAMMIS is to be used until a new information
management solution or capability is developed and deployed to support these medical
supply support activities. TAMMIS supports distribution and materiel management
functions and provides the capability for the theater lead agent to order, manage, and
track medical equipment orders.

TAMMIS provides the theater lead agent the ability to print DOD standard shipping
documents, aggregate materiel shipments by customer, and pass data to external DOD
systems for movement planning and in-transit tracking. Army personnel stated that the
theater lead agent needs these capabilities to fulfill its operational responsibilities. The
theater lead agent only has oversight of medical equipment and repair part procurements
made in TAMMIS. TAMMIS is an Army system, and not a joint or fully integrated
information system. All of the MTFs and medical logistics activities have access to
TAMMIS through a customer assistance module; however, the Marine Corps MTF could
not access the module because of information security restrictions.

Defense Medical Logistics Standard Support System
The Defense Medical Logistics Standard Support (DMLSS) system uses a Tri-Service
suite of software modules that are intended to standardize medical logistics among the
Services, reduce the time personnel spend on logistics activities, and improve the
effectiveness and efficiency of health care delivery. DMLSS is deployed to stateside and
home-base MTFs throughout the world and is used by medical logistics activities for
tracking, recording, and reporting medical equipment and repair part procurements. The




                                             7

USCENTCOM “Healthcare Information System Use Policy” states that the DMLSS is to
be used in all theater hospitalization medical units within the USCENTCOM AOR.

The DMLSS equipment and technology management module provides customers and
equipment managers with life-cycle management capabilities to support medical
equipment accountability, maintenance, and procurement. Both the equipment
management and maintenance management submodules are part of the equipment and
technology management module.

The equipment management submodule provides users with the automated capability to
manage equipment assets from the time a customer starts the research for an equipment
item to the point at which the equipment is processed for redistribution or disposal. The
maintenance management submodule provides users with a systematic approach to
medical equipment maintenance.

Recording and Reporting Procurement Information
Army MTFs and medical logistics activities did not use the equipment management
submodule of DMLSS and did not have a complete life-cycle management approach to
recording and reporting medical equipment procurements. Personnel at Army MTFs and
medical logistics activities used ad hoc Microsoft Excel spreadsheets to record and
monitor medical equipment and repair part procurements. Army personnel stated that
historical ordering and receipt information was not available because it was stored in
predecessor medical units’ computers, which were removed when the unit rotated out.
The missing ad hoc information at some of the sites visited caused additional workload
because medical logistics personnel had to manually re-create ad hoc procurement
histories from hardcopy documentation. Army personnel agreed that the ad hoc reports
could contain errors and that creation and maintenance of separate ad hoc records was
redundant and took time from other responsibilities. The additional workload required to
develop ad hoc spreadsheets could have been avoided if DMLSS had been used by Army
MTFs and medical logistics activities throughout the theater of operation. Army MTFs
and medical logistics activities need the DMLSS system to process and manage medical
equipment and repair part procurements.

The Marine Corps MTF did not manage or maintain procurement information on-site
because that information was maintained at the nearby Marine Corps medical logistics
activity. The Marine Corps medical logistics activity did not use the equipment
management submodule of DMLSS and also used ad hoc Microsoft Excel spreadsheets to
record and monitor medical equipment and repair part procurements. Marine Corps
personnel also agreed that the ad hoc reports could contain errors and that maintaining a
separate system of records took time from other responsibilities. The use of DMLSS
would provide Army and Marine Corps MTFs and medical logistics activities with a
medical equipment life-cycle management capability and would improve the ability to
provide oversight of medical equipment in the USCENTCOM AOR.

The Air Force MTF and CJTH used DMLSS to manage medical equipment and repair
part procurements. Air Force MTF and CJTH personnel process medical equipment


                                            8

procurement due-ins and receipts in the DMLSS equipment and technology management
module whether items were procured through the theater lead agent, local contracting, or
the reachback process. As a result, personnel at the MTF and CJTH were able to identify
medical equipment and repair part procurements made from other sources. Because the
theater lead agent uses TAMMIS, it is not able to track procurements made by local
contracting or the reachback process and does not have full life-cycle oversight of all Air
Force MTF and CJTH procurements.

In Iraq, a Joint Medical Task Force provides medical command and control in support of
coalition and Iraqi security force combat operations. A similar medical task force is in
Afghanistan. At the Iraq Joint Medical Task Force, other medical logistics activities, and
MTFs visited, we obtained information on medical equipment and repair part
procurements that was inconsistent or incomplete. For example, personnel at the Iraq
Joint Medical Task Force reported purchases totaling $9.2 million for Army MTFs and
logistical units in Iraq for the 18-month period ended March 31, 2008. For the same
period, the Air Force MTF reported about $3.7 million in medical equipment
procurements from the theater lead agent, local contracting, stateside logistics offices,
and the reachback process. In contrast, the theater lead agent reported about $2.8 million
in medical equipment procurements for the same 18-month period.

A complete medical equipment procurement history is not available in the
USCENTCOM AOR because TAMMIS only includes medical equipment orders placed
through the theater lead agent. MTF orders made through local contracting, the
reachback process, or by stateside commands are not in TAMMIS and not tracked by the
theater lead agent. At this time, TAMMIS partially supports the needs of the theater lead
agent. DMLSS provides a medical equipment life-cycle management capability to the
Air Force MTF and CJTH. An integrated capability would provide the theater lead agent
with the ability to track all medical equipment procurements in the USCENTCOM AOR.
Efforts are underway to replace the TAMMIS functionality with an interim information
system. The ASD(HA) should coordinate with the Army on the implementation plan for
integrating the TAMMIS and DMLSS capabilities into a Military Health System-wide
logistics system.

Medical Equipment Accountability and Maintenance
Army and Marine Corps MTFs and medical logistics activities in the USCENTCOM
AOR maintained medical equipment inventories and maintenance records. However,
personnel and biomedical equipment technicians are required to spend considerable time
re-creating medical equipment inventories and maintenance records each time a unit
rotates into theater. This occurs because Army and Marine Corps MTFs and medical
logistics activities use separate information systems to maintain property accountability
and maintenance records instead of a joint and integrated medical logistics system, such
as DMLSS. Using DMLSS provided the Air Force MTF and CJTH the tools to manage
the life-cycle of medical equipment and maintenance-significant medical equipment from
the time of acquisition through disposal. A description of the data systems used by the
Army, Marine Corps, and Air Force to monitor medical equipment is in Appendix E.



                                             9

Additionally, Army and Marine Corps MTFs use property accountability guidance issued
outside the medical command structure to account for medical equipment. As a result,
Army MTFs did not place some medical equipment on the property books because the
items were below the accountability threshold. We did not determine whether the Marine
Corps MTFs’ medical equipment was on the property books because of time constraints
and the classified nature of the Marine Corps property accountability system.

Army Inventory and Maintenance
Army MTFs in theater used two automated systems and one software application for
tracking medical equipment and medical equipment maintenance. The two systems,
Property Book Unit Supply Enhanced (PBUSE) and the Standard Army Maintenance
System-Enhanced (SAMS-E), and the Microsoft Excel software application were not
integrated and required time-consuming and redundant data input and monitoring.
PBUSE is the Army’s Web-based combat service support property accountability system
that is used throughout the Army. Repair part orders made through the theater lead agent
require manual input into the SAMS-E and subsequent manual updating as the order
proceeds through the supply system. Personnel stated that the SAMS-E does not
recognize the data fields that MTFs need to keep track of medical maintenance actions.
Neither PBUSE nor SAMS-E is medical logistics systems that provide a complete life-
cycle management picture to Army MTF personnel.

At the three Army MTFs visited, current units or previous units had not maintained or
updated medical equipment PBUSE records in a timely manner. At one location, unit
personnel performed a comprehensive physical inventory using Microsoft Excel
spreadsheets upon their arrival in theater. They found more than 350 items valued at
about $1.9 million that required disposal or transfer to other locations. Additionally, 240
items, valued at $3.6 million, were at the MTF but not entered into PBUSE.

At another MTF, we noted significant differences between the medical maintenance
records and the PBUSE records. MTF personnel indicated that they had not processed
changes to the PBUSE records in more than 6 months. Because the accountability
records were officially maintained by the Army Materiel Command and not within the
medical command structure, MTF personnel were reluctant to request placement of some
maintenance-significant medical equipment items on the property accountability records.
Lack of a consistent and accurate inventory hampers effective life-cycle management
efforts and often results in increased workloads and redundant data entry and analysis.

Army personnel in theater also created a separate up-to-date database to track the
maintenance actions for maintenance-significant equipment. At three Army MTFs,
medical maintenance personnel were required to list all medical maintenance-significant
equipment to ensure completion of preventive maintenance and calibration tasks. This
occurred because predecessor units did not leave behind the maintenance records and
because of inconsistencies in SAMS-E. An integrated inventory and medical
maintenance system, such as DMLSS, would provide the information necessary for
comprehensive oversight and life-cycle management of medical equipment and prevent



                                            10

unnecessary and redundant work to manage the accountability and maintenance of
medical equipment through the receipt, sustainment, and disposal process.

Marine Corps Inventory and Maintenance
The Marine Corps MTF used the classified Asset Tracking Logistics and Supply System
to maintain its property accountability of medical equipment. For day-to-day medical
equipment management, personnel used Microsoft Excel spreadsheets to monitor and
maintain the medical equipment inventory.

The Marine Corps MTF did not perform medical equipment maintenance on-site because
it was colocated with a Marine Corps medical logistics activity, which was responsible
for tracking and maintaining medical equipment inventories at the MTF as well as
medical units at remote forward-operating bases. The medical logistics activity also
maintained its medical inventory and equipment maintenance records using Microsoft
Excel spreadsheets.

At the time of our visit, medical logistics activity personnel were reconstructing the
medical equipment inventory and maintenance status for each location. MTF personnel
were unable to plan the level of effort necessary to perform preventive maintenance at
these locations because records from the predecessor unit were incomplete or not
available. If predecessor units had maintained the records in DMLSS, the additional
workload would not have been required.

Air Force Inventory and Maintenance
Similar to its nondeployed counterparts stateside, the Air Force directed deployed
Expeditionary Medical Support Squadrons and Groups to use DMLSS to manage supply
and equipment inventories and equipment maintenance actions where applicable. The
Air Force MTF and CJTH we visited used DMLSS for monitoring and maintaining their
medical equipment. The medical logistics personnel used the system’s equipment
management submodule to account for medical equipment inventory; and the biomedical
engineering technicians used it to record, report, and manage maintenance actions. The
submodules are integrated within DMLSS; thus, additions and deletions as a result of
equipment management actions flowed directly through the system to the equipment
maintenance submodule. As a result, DMLSS provided the Air Force MTF and CJTH
full life-cycle oversight of its medical equipment and maintenance-significant medical
equipment from acquisition to disposal.

Environmental Considerations
Frequent medical equipment usage and the harsh operational environment in the
USCENTCOM AOR place a significant burden on medical equipment, MTF personnel,
biomedical equipment technicians, and medical logistics personnel. They commented on
the conditions that could affect the reliability and functionality of medical equipment.
Dust infiltration and high winds in theater permeate soft- and hard-side MTFs and lead to
breakdowns in equipment. Also, the use of medical equipment (frequency and duration)
beyond the manufacturer’s recommendations leads to unscheduled maintenance. For
example, one Army MTF reported that there were 1,176 instances of unscheduled


                                           11

medical equipment maintenance in the first 6 months of the unit’s deployment. Another
Army MTF reported 1,367 instances of unscheduled maintenance in 12 months.

MTFs also experience power supply variations from generator-produced power and
in-country power sources. Personnel stated that electrical power conditioners are
required because of variations in voltage. Finally, some of the sophisticated medical
equipment is sensitive to heat, which degrades its performance over time. Environmental
conditions further support the need for an integrated information system that maintains
accurate and complete medical maintenance records and repair histories. Those histories
are important to maintaining an effective life-cycle management program and a high state
of medical equipment readiness. An integrated system would also help lessen the
workload on medical logistics and biomedical maintenance personnel.

          Figure. Inside a Marine Corps Medical Equipment Repair Tent




Management Initiatives
During our visits to MTFs and medical logistics activities in the USCENTCOM AOR, we
learned of several initiatives to strengthen controls, facilitate life-cycle management of
medical equipment, and make the medical equipment and repair part procurement process
more efficient and timely.

       	 In June 2007, USCENTCOM established a Joint Medical Technology
          Assessment Review Team to conduct a series of surveys across the AOR to
          determine medical equipment functionality and to ensure proper technology
          matches for an extended or long-term operational presence. The joint review


                                           12

             team issued a report in September 2008 that stated a logistical supply analysis
             was needed and that use of DMLSS would provide a robust capability to
             properly manage medical equipment. USCENTCOM, however, did not agree
             with the Joint Medical Technology Assessment Review Team
             recommendation to perform a logistical supply-chain analysis.

        	 Personnel from the Army Medical Command stated that efforts are underway
           to interface DMLSS with other Army systems and that the Command plans to
           introduce DMLSS at Army Combat Support Hospitals in theater by late 2010.
           Actions are also underway to replace the TAMMIS functionality with an
           interim information system until the Military Health System’s DMLSS suite
           of applications is implemented in approximately 2012. When implemented,
           the Military Health System will have a completely integrated, supply-chain
           management system from institutional MTFs to theater support.

        	 The use of the Government purchase card has proven effective in reducing
           repair part procurement delays, and the Army Surgeon General has extended
           the use of Government purchase cards in theater. The Medical Task Force in
           Iraq is evaluating a proposal to provide each MTF its own Government
           purchase card.

        	 The U.S. Army Medical Research and Materiel Command and the 6th Medical
           Logistics Management Center have initiated a Lean Six Sigma project2 to
           examine medical acquisition processes and procedures. Initially the study is
           to concentrate on improving order ship times from the time the procurement is
           entered into TAMMIS to the time the theater lead agent receives the item.

        	 The Defense Logistics Agency (DLA) and the Defense Supply Center,
           Philadelphia were considering employing a troop support planner at the
           USCENTCOM headquarters location. The planner would be tasked to
           perform medical logistics planning with the combatant commands and theater
           lead agents, with the goal of providing better support to the combatant
           commander customer base, including the theater lead agent.

Conclusion
An integrated and comprehensive life-cycle management process and coordination of
medical equipment and repair part procurements with the theater lead agent would
provide health care managers and planners with information they need to efficiently
sustain the critical health care mission in theater and forecast future requirements.

Multiple systems, incomplete information, and lack of historical information increase the
possibility for error and increase the workload of MTF and medical logistics personnel.


2
  Lean Six Sigma is a project established by the U.S. Army Medical Research and Material Command to
mathematically examine medical acquisition processes and procedures and to identify potential efficiencies
in the delivery of medical material.


                                                   13

Timely implementation of DMLSS in theater should provide Army and Marine Corps
personnel with an integrated system for life-cycle management and facilitate the sharing
of medical equipment information. Such oversight and control is essential to ensuring
that the resources of the Military Departments are efficiently used and effectively
managed.

Implementation of management initiatives, such as the Government purchase card or
other procurement methods, would enable the theater lead agent to provide timely service
when critical medical equipment or repair part needs arise. Implementation of the
initiatives would also enable the theater lead agent to capture complete procurement
information for the USCENTCOM AOR.

Management Comments on the Introduction and Finding
and Our Response
In addition to commenting on the recommendations, USCENTCOM, U.S. Army Medical
Command, and Defense Logistics Agency commented on the Introduction and Finding.
Comments related to the Introduction and Finding and our response are in Appendix F.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
As a result of USCENTCOM management comments on the original recommendation,
we revised Recommendation A.1. to clarify our intention that controls should be in place
to ensure medical equipment and repair part procurements are coordinated and centrally
managed. Such oversight should assist USCENTCOM in managing a unified life-cycle
management process for procuring medical equipment and repair parts.

A.1. We recommend that the Commander, U.S. Central Command coordinate and
establish a working group with the Chairman, Joint Chiefs of Staff; Director,
Defense Logistics Agency; Assistant Secretary of Defense (Health Affairs); and
Military Department Central Commands to develop controls to ensure the theater
lead agent has oversight of all medical equipment and repair part procurement
transactions from all sources of supply. The controls should include consistent
recording and reporting of all medical equipment and repair parts procured for use
in the U.S. Central Command area of responsibility.

U.S. Central Command Comments
The Chief of Staff, USCENTCOM disagreed with the original report recommendation to
develop a joint theater procurement process, stating that it was a Service Title X
responsibility and beyond the purview of a Combatant Command. While acknowledging
the Service procurement processes we discussed in Appendix C, the Chief of Staff stated
that those processes were a Service responsibility.




                                           14

Our Response
Although USCENTCOM did not agree with the original recommendation, we consider
the comments partially responsive. The intent of the original recommendation was for
the Commander, USCENTCOM to establish a joint theater procurement process that
would result in consistent recording and reporting of all procurement transactions and
would provide the theater lead agent with the capability to facilitate the life-cycle
management of medical equipment and repair part procurements.

The mission of the theater lead agent is to provide medical supply-chain planning, act as
the lead procurement agent for the theater, and facilitate a medical equipment life-cycle
management program. In order for the theater lead agent to perform its mission more
efficiently and effectively, coordination of all medical equipment procurements and
consistent recording and reporting of procurements are necessary. As stated in the
finding, there are currently multiple and fragmented processes for acquiring, recording,
and reporting medical equipment in the USCENTCOM AOR.

During multiple discussions with USCENTCOM, we agreed that a joint procurement
process is feasible and recognize the difficulty in developing such a process for
equipment and repair part procurements. At this time, we believe it is more expedient to
improve controls to ensure coordination, recording, and reporting of medical equipment
and repair part procurements and for maintaining oversight, facilitating supply-chain
planning and ensuring successful life-cycle management. As a result, we revised
Recommendation A.1. We request that the Commander, USCENTCOM, provide
comments on the revised Recommendation A.1. in response to the final report.

Assistant Secretary of Defense (Health Affairs) Comments
The Deputy ASD (Force Health Protection and Readiness), performing the duties of the
ASD(HA), agreed with the original recommendation.

Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Comments
The Deputy Assistant Secretary of the Navy (Civilian Human Resources) provided
comments for the Commander, U.S. Naval Forces Central Command the Health Service
Support, U.S. Naval Forces Europe; and the Health Services Department, Headquarters,
U.S. Marine Corps, who responded on behalf of the Marine Corps Forces Central
Command.

U.S. Naval Forces Central Command Comments
The Chief of Staff, U.S. Naval Forces Central Command stated that procurement system
interoperability was necessary and that a joint solution should mitigate costly delays
affecting readiness and operational capabilities.

Marine Corps Forces Central Command Comments
Headquarters, Marine Corps on behalf of the Marine Corps Forces Central Command
agreed with the recommendation.


                                            15

Defense Logistics Agency Comments
The Defense Logistics Agency (DLA) Acting Senior Procurement Executive agreed with
the original recommendation, supporting a joint theater procurement process within
Southwest Asia and stating that DLA currently supports the theater lead agent and attends
medical logistics summits. He also stated that DLA would continue to provide personnel,
data, and other support to develop the process in the best interest of USCENTCOM and
others.

Our Response
The ASD (HA), U.S. Naval Forces Central Command, Marine Forces Central Command,
and DLA comments are responsive to the original recommendation.

Unsolicited Comments
Health Service Support, U.S. Naval Forces Europe Comments
Although not required to comment, the Deputy Assistant Secretary of the Navy (Civilian
Human Resources) provided comments for Health Service Support, U.S. Naval Forces
Europe. Health Service Support agreed with the report recommendations and stated that
its limited experience in dealing with the current procurement process has been extremely
complicated and frustrating. Health Service Support also stated that there is an obvious
need for the Services to have a unified process for procurement of medical equipment.

Comments Not Received
The Joint Chiefs of Staff, U.S. Army Central Command, and U.S. Air Forces Central
Command did not comment on this recommendation. We request comments on the final
report.

Revised Recommendation
We revised Recommendation A.2. to include the installation and use of the DMLSS
equipment management and maintenance submodules at U.S. Marine Corps medical
logistics companies and detachments in the USCENTCOM AOR.

A.2. We recommend that the Commander, U.S. Central Command coordinate with
the Chairman, Joint Chiefs of Staff, Assistant Secretary of Defense (Health Affairs),
and Military Department Central Commands to ensure the installation and use of
the Defense Medical Logistics Standard Support equipment management and
maintenance submodules at all military treatment facilities and U.S. Marine Corps
medical logistics companies and detachments in the USCENTCOM area of
responsibility. Defense Medical Logistics Standard Support system functionality
should include the ordering and receipt of medical equipment and repair parts and
maintaining medical equipment inventory and maintenance records.

U.S. Central Command Comments
The Chief of Staff, USCENTCOM partially agreed, stating that the USCENTCOM
“Healthcare Information System Use Policy,” July 14, 2008, requires the Services to


                                           16

deploy medical units with DMLSS. The Chief of Staff also stated that the policy was
developed by the parties identified in the recommendation. Further, he stated that our
report did not mention the July 2008 policy. The Chief of Staff discussed an Army
management initiative to deploy DMLSS by 2012 and noted that other Services were
already deploying DMLSS. He stated that because of the “Healthcare Information
System Use Policy” and the Army’s management initiative, USCENTCOM did not see a
need for further coordination as stated in the recommendation.

Our Response
We consider USCENTCOM’s partial agreement to be partially responsive to the
recommendation, which was intended to ensure a joint integrated, interoperable, and
consistent capability to track medical equipment procurements, maintenance, and medical
equipment inventory across the USCENTCOM AOR. At the time of our visit, four of the
six MTFs did not use the equipment and technology management submodule of the
DMLSS system to maintain medical equipment inventory and maintenance records as
required by the USCENTCOM policy. The USCENTCOM policy, if fully implemented
in theater, should result in consistent use of DMLSS in the AOR. However, we request
that USCENTCOM provide updated milestones on the Army’s plan to implement
DMLSS equipment management and maintenance submodules at the MTFs and the
Marine Corps implementation plan for the same DMLSS submodules in the
USCENTCOM AOR. With regard to the USCENTCOM statement that our report did
not mention the “Healthcare Information System Use Policy,” it was discussed twice in
the Finding.

Assistant Secretary of Defense (Health Affairs) Comments
The Deputy ASD (Force Health Protection and Readiness) agreed with the
recommendation and stated that the deployed U.S. Marine Corps medical logistics
companies and detachments use the DMLSS equipment management and maintenance
submodules in support of the medical units and treatment facilities. The Deputy ASD
also stated that the recommendation should be revised to include U.S. Marine Corps
logistics companies and detachments in the USCENTCOM AOR.

Our Response
The Deputy ASD comments are fully responsive. At the time of our visit, the Marine
Corps medical logistics company maintained medical equipment inventory and
maintenance records using Microsoft Excel spreadsheets and did not use the DMLSS
equipment management and maintenance submodule. We agree with the Deputy ASD
desire to include the requirement for Marine Corps medical logistics companies and
detachments in theater to use the DMLSS equipment management and maintenance
submodules. The intent of our recommendation was to ensure consistency in reporting
and recording medical equipment procurements, inventory, and maintenance as well as
make sure the USCENTCOM “Healthcare Information Use Policy” was followed. We
encourage the implementation of the DMLSS equipment management and maintenance
submodules at Marine Corps medical logistics companies and detachments.




                                          17

U.S. Naval Forces Central Command Comments
The Chief of Staff agreed and stated the recommendation, if implemented, would provide
interoperability to all DOD forces within a specific theater of operation. The Chief of
Staff also stated that the focus for integrating, implementing, and executing an
interoperable system should occur with the supporting technical commands; systems
commands; and commands that train, equip, and resource Navy operational units.

Our Response
The U.S. Naval Forces Central Command comments are responsive to the
recommendation.

Marine Corps Forces Central Command Comments
Headquarters, Marine Corps on behalf of the Marine Corps Forces Central Command
stated that the U.S. Marine Corps medical units and treatment facilities do not use
DMLSS but that deployed Marine Corps medical logistics companies and detachments
use the DMLSS equipment management and maintenance submodules in support of the
medical units and treatment facilities.

Our Response
The Headquarters, Marine Corps comments are responsive. As we stated in our response
to the Deputy ASD comments on Recommendation A.2., at the time of our visit to the
Marine Corps logistics activity, medical personnel were maintaining records using ad hoc
Microsoft Excel spreadsheets and did not use the DMLSS equipment management and
maintenance submodule. We revised the recommendation to include Marine Corps
logistics companies and detachments in the recommendation. We also support the
Marine Corps desire to further facilitate joint and interoperable information systems in
theater.

Unsolicited Comments
Defense Logistics Agency Comments
Although not required to comment, the DLA Acting Senior Procurement Executive stated
that the recommendation should identify functionality and interoperability requirements
instead of recommending use of DMLSS for tracking medical equipment procurements,
inventory, and maintenance information. However, he further stated that DLA and the
Services were executing agreements to ensure system interoperability and functionality
that would support the recommendations in the report.

Our Response
In response to the DLA comments, we recommended installation and use of DMLSS
because it was developed and deployed to enhance health care delivery in peacetime and
to promote wartime readiness and sustainability. Additionally, DMLSS was designed to
standardize medical logistics among the Services and reduce the time health care
professionals spend on logistics activities. DLA stated it was executing agreements that
would ensure interoperability and support the recommendation. If DMLSS is not the best


                                          18

medical logistics system in theater, we welcome suggestions from DLA regarding an
alternative solution that would allow oversight of all medical equipment and repair part
procurement and maintenance actions in theater.

Army Medical Command Comments
The Chief of Staff provided unsolicited comments, stating that maintenance systems in
theater were inadequate because they lacked Class VIII supply systems integration. (The
Class VIII medical commodity group includes pharmaceutical, medical-surgical, dental,
medical laboratory, radiology, and optometry supplies as well as preventive medicine
items and medical equipment.) He stated that integrating the Class VIII supply and
maintenance systems would greatly enhance the Army’s ability to track, monitor, and
reconcile repair part orders. Further, he stated that a single system to manage Class VIII
supply transactions and track maintenance and property would reduce inconsistencies
among property and maintenance systems.

The Chief of Staff also stated that the DMLSS Class VIII functionality should be tested
for use at a U.S. Army Combat Support Hospital before moving theater medical logistics
assets to the DMLSS platform. He noted that many Army programs rely on equipment
being loaded into the Army’s PBUSE and SAMS-E systems and that this, as well as the
ability to feed data directly to other Army logistics systems, should be considered when
testing any system that might replace SAMS-E for medical equipment management.

Our Response
We recognize the Army’s current effort to interface DMLSS with other Army systems
and note the Army’s plans to introduce DMLSS at Army Combat Support Hospitals, in
theater, by late 2010. ASD(HA) personnel also provided documentation during the audit
that showed testing of DMLSS at the Army Combat Support Hospital was to begin in
2009. We acknowledge that actions are underway to replace the TAMMIS functionality
with an interim information system until the Military Health System’s DMLSS suite of
applications is implemented in approximately 2012. We also recognize the Army’s
concern for adequate testing of the DMLSS platform and the enhancements necessary to
support the Army mission.

Comments Not Received
The Joint Chiefs of Staff, U.S. Army Central Command, and U.S. Air Forces Central
Command did not comment on this recommendation. We request comments on the final
report.

A.3. We recommend that the Assistant Secretary of Defense (Health Affairs)
coordinate with the Surgeon General of the Army to ensure timely implementation
and an updated milestone and implementation plan for the transition from the
Theater Army Medical Management Information System to the Military Health
System’s Defense Medical Logistics Standard Support suite of applications.




                                            19

Assistant Secretary of Defense (Health Affairs) Comments
The Deputy ASD (Force Health Protection and Readiness) agreed with the
recommendation. However, she requested that the information system referenced in the
recommendation be changed to Military Health System DMLSS instead of Military
Health System enterprise solution, Defense Medical Logistics Standard Support Joint
Enterprise-wide Logistics System as stated in the draft report recommendation.

Our Response
The comments from Deputy ASD are responsive. After additional discussions with the
ASD (HA), we have revised the recommendation to read Military Health System’s
DMLSS suite of applications.

U.S. Army Medical Command Comments
The Chief of Staff agreed with the recommendation and provided additional comments.
The Chief of Staff stated that medical logistics functions rely heavily on technology to
support a variety of medical supplies, equipment management, sustainment, maintenance,
and quality assurance processes, including initial response supplies, sustainment materiel,
and medical equipment. He also stated that the Army has a dramatically larger mission in
theater than the other Services, which requires additional functionality currently
unsupported by a single automated system.

The Chief of Staff also stated that a

       logistical end-to-end (factory to foxhole) business practice analysis is required to ascertain
       what functionality is needed with a [Combat Support Hospital] and what system(s) best
       delivers the capabilities determined to be essential to support the mission of a fully
       operational [Combat Support Hospital] in a deployed environment.

Our Response
We consider the comments from the Chief of Staff to be partially responsive. We have
seen the Army “Theater Medical Logistics Automation Information Systems Concept in
Support of the Medical Communications Capstone Concept,” August 22, 2006, which
discusses major initiatives for the Army’s transition from TAMMIS to a commercially-
based enterprise architecture. During the audit, personnel from the Army Medical
Command stated that efforts were underway to interface DMLSS with other Army
systems and that the Command plans to introduce DMLSS at Army combat support
hospitals in theater by late 2010. Actions were also underway to replace the TAMMIS
functionality with an interim information system until the Military Health System’s
DMLSS suite of applications are implemented in approximately 2012. In response to the
final report, we request that the Chief of Staff provide additional and updated information
regarding progress and timelines associated with the development of its transition from
TAMMIS to its commercially-based enterprise architecture.

A.4. We recommend that the Commander, U.S. Army Central Command provide a
status update on the management initiatives and, if appropriate, implementation



                                                    20

plans on any management initiatives that would improve the medical equipment
and repair part procurement process.

U.S. Army Central Command Comments
The Chief of Staff agreed with the recommendation and stated that the theater requires a
responsive reachback program for urgent medical equipment procurement and repair
parts procurement. He stated that the theater lead agent has a reachback program in place
for both equipment procurement and repair parts, but neither process is as efficient as it
could be.

The Chief of Staff stated that the theater lead agent is “working closely with the 6th
Medical Logistics Management Center and is employing Lean Six Sigma techniques to
develop alternative courses of action to optimize reach back capabilities for both urgent
medical equipment and repair parts procurement.”

The comments also addressed an interim solution of using a Government purchase card,
with a $25,000 limit, to procure repair parts for theater medical units. The 6th Medical
Logistics Management Center also secured the use of blanket purchase agreements with
vendors for medical equipment repair parts.

Our Response
The Chief of Staff comments are responsive to the recommendation.

Unsolicited Comments
Assistant Secretary of Defense (Health Affairs) Comments
Although not required to comment, the Deputy ASD (Force Health Protection and
Readiness) agreed with the recommendation.




                                            21

Appendix A. Scope and Methodology
We conducted this performance audit from November 2007 through February 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
This final report was delayed because of coordination with USCENTCOM and the
Chairman, Joint Chiefs of Staff, on the revision of Recommendation A.1. and the audit
team being assigned to a statutorily required assessment; however, as of September 2009,
the conditions and causes identified in this report remain relevant. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

The audit focused on the accountability, maintenance, and procurement of medical
equipment and repair parts used to support operations in the USCENTCOM AOR. We
defined medical equipment as equipment that is directly related to the care of the patient
and requires calibration, normally scheduled preventive maintenance, and inspection.
See Appendix G for the categories of medical equipment we selected for review.

We reviewed laws, policies, and guidance from 1980 through 2008 relating to medical
equipment and repair part procurement and accountability. We reviewed whether
procedures and controls were in place for acquiring mission-essential medical equipment
and whether the recording and reporting of that equipment was accurate and complete.

In addition, we contacted or met with representatives from the Assistant Secretary of
Defense (Health Affairs), Joint Chiefs of Staff, TRICARE Management Activity,
Defense Logistics Agency, USCENTCOM, Offices of the Military Department Surgeons
General, U.S. Army Central Command, U.S. Army Medical Materiel Agency, U.S. Army
Medical Command, U.S. Marine Corps Forces Central Command, Marine Corps Systems
Command, U.S. Air Forces Central Command, and other DOD organizations.

We also visited six MTFs and five medical logistics activities in Afghanistan, Iraq, and
Qatar. The six MTFs visited included three Army Combat Support Hospitals, one Air
Force Theater Hospital, a Combined Joint Theater Hospital, and one Role 2 Marine
Corps Expeditionary Medical Unit. The five medical logistics activities included the
theater lead agent; an Army medical logistics brigade, battalion, and company; and a
Marine Corps medical logistics company. During those visits, we obtained background
and summary information on the medical equipment and repair parts accountability,
maintenance, and procurement process in the USCENTCOM AOR. The facilities
selected represented the Army, Marine Corps, and Air Force, and their selection was
based on their mission, capabilities, and locations.

For each site visited, we obtained the criteria used for the inventory, procurement, and
maintenance of medical equipment. When available, we also obtained inventory,
procurement, transaction, and maintenance information. At each location, we compared
data systems that were used to track that information, and verified some equipment


                                            22

inventories. We judgmentally selected a limited number of medical equipment items and
verified the existence of each item. For each, we cross-walked the item between the
property accountability records and the inventory of maintenance-significant equipment.
We also physically located the items in the MTF and verified the existence of plant
property tags. Our limited inventory of medical equipment showed that locally
maintained records of maintenance-significant equipment were generally more accurate
than the property accountability records.

Roles of Care
In multinational operations, such as Operations Enduring and Iraqi Freedom, medical
resources are typically distributed into four progressive roles or levels of capability (to
conduct treatment, evacuation, resupply, and other functions) essential to the health of the
force. Medical resources are categorized according to their capabilities, but are not
directly interchangeable. The minimum capabilities of each role are imbedded in each
higher role. For example, a Role 3 MTF has the ability to carry out Role 1 and Role 2
functions. Joint Publication 4-02, “Health Service Support,” October 31, 2006, defines
the various roles of health care as follows.

   	 The Role 1 MTF provides primary health care, specialized first aid, triage,
      resuscitation, and stabilization. Role 1 capabilities include casualty stabilization
      from the point of injury to preparation of casualties for evacuation.

   	 The Role 2 MTF is a structure that is able to receive casualties and perform triage
      and resuscitation and treatment of shock to a higher level than role 1. It usually
      includes damage control surgery and a limited capability for the short-term
      holding of casualties until they can be returned to duty or evacuated.

   	 The Role 3 MTF is designed to provide secondary health care within the
      restrictions of the theater holding policy. It supports deployed hospitalization and
      includes a variety of mission-tailored clinical specialties, including primary
      surgery and appropriate diagnostic support.

   	 The Role 4 MTF provides the full spectrum of definitive medical care that cannot
      be deployed to theater or is too time-consuming to be conducted in theater. It
      typically includes definitive care specialists, surgical and medical procedures,
      reconstructive surgery, and rehabilitation.

Limitations to Audit Scope
As part of our announcement objective, we intended to obtain complete medical
equipment inventories and medical equipment procurements from October 1, 2006,
through March 31, 2008, at each of the locations visited and all of the USCENTCOM
AOR. We were unable to determine all of the medical equipment procured because there
was no integrated information system and no one central source that captured all
procurements.




                                            23

At some locations, records were not always available because predecessor units did not
leave behind inventory, maintenance, or procurement information during unit rotations.
Additionally, units were unable to provide historical information on local ordering that
reflected transaction initiation dates and completion dates. This prevented us from
calculating and making comparisons of order ship times by source of supply across all
MTFs visited. Additionally, our limited time in theater prevented us from completing an
in-depth analysis to determine the reasons for delays in individual procurement
transactions.

Use of Computer-Processed Data
We obtained computer-processed data from various inventory and procurement
information systems and unit-prepared spreadsheets. During the audit, we performed
limited reliability tests on the accuracy of the medical equipment inventory reported in
PBUSE and DMLSS. We judgmentally selected medical equipment items and cross-
checked them to the property accountability records and physically located the items in
the MTF. Additionally we obtained listings of medical equipment and parts procured for
each Service and the medical equipment inventory from plant property officers.

We could not verify the accuracy of the inventories for medical equipment because
records were incomplete or had not been updated in PBUSE. Additionally, because of
coding errors in DMLSS and the lack of complete procurement transactions in TAMMIS,
we were unable to calculate the order ship times for procurements by source of supply.

We were unable to assess the overall accuracy or reliability of the systems used for
medical equipment accountability, maintenance, and procurement. Our conclusions were
not dependent on the accuracy of information from those systems. Our recommendations
should help correct the data reliability issues addressed in this audit.

Prior Coverage
During the last 5 years, the Army and the Air Force have issued seven reports discussing
medical equipment used to support operations in Southwest Asia. Unrestricted Army
reports can be accessed from .mil and gao.gov domains over the Internet at
https://www.aaa.army.mil/.

Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
https://wwwd.my.af.mil/afknprod/ASPs/cop/Entry.asp?Filter=OO by individuals with a
common access card and established user account.

Army
A-2008-0121-FFH, “Readiness Reporting for Active Component Medical Units,”
April 30, 2008

A-2008-0041-ALL, “Asset Visibility in Support of Operation Iraqi Freedom and
Operation Enduring Freedom – Summary Report, Active Army and Army Reserve
Returning and Left-Behind Equipment,” January 30, 2008


                                           24

Army (Cont’d)
A-2008-0040-FFH, “Reserve Component Medical Readiness Reporting, U.S. Army
National Guard,” January 16, 2008

A-2007-0075-ALL, “Asset Visibility in Support of Operation Iraqi Freedom and
Operation Enduring Freedom,” February 15, 2007

A-2006-0249-FFM, “Defense Property Accountability System Material Weakness
Closeout,” September 28, 2006

Air Force
F2008-0001-FD2000, “Patient Movement Items,” October 12, 2007

F2004-0005-FD3000, “Medical Readiness Report,” May 10, 2004




                                         25

Appendix B. USCENTCOM Area of
Responsibility
The USCENTCOM mission is to promote development and cooperation among nations,
respond to crises, and deter or defeat state and transnational aggression in order to
establish regional security and stability. The figure shows the countries (in color) in the
USCENTCOM area of responsibility.

                              Figure. USCENTCOM AOR




The countries in the USCENTCOM AOR are:

              Afghanistan                            Oman
              Bahrain                                Pakistan
              Egypt                                  Qatar
              Iran                                   Saudi Arabia
              Iraq                                   Syria
              Jordan                                 Tajikistan
              Kazakhstan                             Turkmenistan
              Kuwait                                 United Arab Emirates
              Kyrgyzstan                             Uzbekistan
              Lebanon                                Yemen




                                             26

Appendix C. Medical Equipment and Repair
Part Approval Process
When new, nonstandard medical equipment or repair parts are needed, the Army uses
operational needs statements, letters of justification, or new item requests. The Army
processes are explained below.

       	 The Army operational needs statement is used to justify a request for
          equipment that exceeds the unit’s current equipment authorization and
          provides either a new capability or an increase to authorized on-hand
          quantities.

       	 The Army letter of justification is used to justify an item of equipment that is
          needed to replace shortages that result from equipment that is unserviceable,
          uneconomical to repair, lost, or needed to replace an existing shortage.

       	 A new item request is part of the letter of justification and is used to justify a
          piece of medical equipment or repair part that is not cataloged in the
          TAMMIS system. Items that have not been ordered for 6 months or more
          drop out of the catalog and are no longer stocked and, thus, require a new item
          request.

The Air Force uses an equipment action request for justifying medical equipment that is
not on an MTF’s authorized allowance list. The Marine Corps uses the Army’s
operational needs statement process. Ultimately, the Command Surgeon at the Air
Forces Central Command and the Marine Corps Systems Command approves Air Force
and Marine Corps medical equipment and repair part procurements.

Nonstandard medical equipment and repair parts are not in the theater lead agent’s
catalog of items or in MTFs’ authorized allowance lists. Because of the Army’s multiple
approval levels, it is our opinion that its cumbersome process can add considerable time
to the procurement process. The Air Force equipment action request is more streamlined
because it requires fewer levels of review and approval for new medical equipment
procurements. The table on the next page shows the Army’s operational needs statement
approval process that Army MTFs must complete when requesting new medical
equipment or increased quantities.




                                            27

               Table. Army Approval Process for Medical Equipment

    Step                                    Description
     1.       Unit identifies new medical equipment requirement
     2.       MTF Commander reviews/approves requirement
     3.       Task Force Medical (clinical operations and medical maintenance)
              approves requirement
     4.       Medical equipment validation and standardization board approves
              requirement
     5.       Brigade Commander approves requirement
     6.       Operational Needs Statement entered into Equipment Common
              Operation Picture system
     7.       Multi National Corps – Iraq approves requirement
     8.       Multi National Force – Iraq approves requirement
     9.       Military Department Central Command approves requirement
     10.      Headquarters, Department of the Army – Operations approves
              requirement
     11.      Headquarters, Department of the Army approves funding

As shown in the table, the Army’s process requires numerous levels of approval,
including Headquarters Department of the Army review for medical equipment items. In
contrast, the highest level of approval for the Air Force is the U.S. Air Forces Central
Command. Additionally, the highest level of approval for the Marine Corps is the
Marine Corps Systems Command. When the requirements are approved, the U.S. Army
and U.S. Air Forces Central Surgeon’s office and the Marine Corps Systems Command
identify the best sourcing solution for the requirement. Having numerous levels of
approval in the Army has the potential to slow down the process for obtaining urgently
needed medical equipment and repair parts. Because of the audit’s scope limitations
discussed previously, we were unable to validate the medical equipment procurements
the Services made through the operational needs statement process, and therefore, we are
not making recommendations in this area.




                                           28

Appendix D. Timeliness of Medical
Equipment Procurements
At each MTF and medical logistics activity visited, we intended to obtain information on
medical equipment and repair part procurements that were made from October 1, 2006,
through March 31, 2008. With that information, we planned to calculate the amount of
time it took to obtain medical equipment or repair parts from the time the order was
placed by the MTF or medical logistics activity to the time the item was received.
Because information was inconsistent, incomplete, or unavailable at some of the MTFs
and medical logistics activities we visited, we were unable to consistently determine the
time required to order and ship medical equipment or repair parts in the USCENTCOM
AOR. Personnel at MTFs and medical logistics activities stated that they experienced
delays in the receipt of medical equipment and repair parts and that customer wait times
were an area of concern.

We obtained anecdotal information from several of the MTFs visited that showed
concerns with the timeliness of equipment and repair part delivery. At one Army MTF,
personnel stated that it took an average of 41 days to obtain repair parts. Customer wait
times for medical equipment ranged from 7 to 109 days. At another Army MTF,
personnel stated that it was common to have customer wait times of 120 to 250 days for
medical equipment and repair parts.

Personnel at the theater lead agent were aware of these issues, and also provided us with
an analysis of customer wait times for medical equipment for the three Army MTFs and
two Army medical logistics activities that we visited. They calculated customer wait
times from the time the theater lead agent placed the order to the time the lead agent
received it. This did not include the time required for the MTF to place the order or the
time required to ship the item from the theater lead agent to the MTF. For 2007, average
customer wait times for the five Army locations we visited ranged from 152 to 245 days.

The theater lead agent did not calculate Air Force MTF customer wait times because the
Air Force does not consistently order medical equipment through the theater lead agent.
The theater lead agent did not calculate Marine Corps customer wait times. Also, the
theater lead agent did not have access to information supporting medical equipment and
repair part procurements made outside of TAMMIS. Because the Air Force used
DMLSS, we were able to calculate the order ship times for medical equipment and repair
parts. For calendar year 2007, average customer wait times for completed transactions
for the Air Force MTF and the CJTH ranged from 41 to 61 days.

Reasons for Delays
Our limited time in theater and inconsistent information precluded us from analyzing
each individual transaction to determine specific reasons for delays. To do so would
have required in-depth research and analysis of transactions from the MTF, medical
logistics activity, or theater lead agent. Discussions with personnel at those locations
revealed that there was not any single reason for the lengthy order ship times, but that


                                            29

many factors could impact the timeliness of medical equipment or repair part shipments.
Delays could be caused by:

   	 items not available at the theater lead agent or the vendor location;
   	 manufacturing lead times or special accommodations; for example,
      remanufacturing medical equipment to run on 220-volt power instead of 110-volt
      power;
    delays in-transit;
    delays in processing medical equipment shipments through Customs in Qatar,
      where the theater lead agent is located;
    requisitions for nonstandard medical equipment that are not part of an MTF
      authorized allowance list or items requiring other justifications; or
    the levels of approval required by the Army operational needs statement process.




                                          30

Appendix E. USCENTCOM Medical Inventory
and Maintenance Data Systems
USCENTCOM uses various data systems to inventory medical equipment and record
equipment maintenance. Summarized below are brief descriptions of the data systems
that Army, Air Force, and Marine Corps personnel use for inventory and maintenance
actions.

Defense Medical Logistics Standard Support System (Inventory and
Maintenance)
The DMLSS system replaces the many, aging legacy logistics systems with one, standard
DOD medical logistics system, enabling health care providers to spend less time on
logistics and more time on primary health care delivery. Basic functionality includes
some of the following capabilities: property accounting, biomedical maintenance
operations, property management, and inventory. However, DMLSS does not include
some of the functionality currently provided by TAMMIS.

Property Book Unit Supply Enhanced System (Inventory)
The PBUSE system is the Army’s Web-based, combat service support property
accountability system. It provides real-time management of total assets and automated
catalog changes throughout the Army. Further, it includes Chief Financial Officer’s
compliance for Modified Table of Organizational and Equipment and Table of
Distribution and Allowances.

Standard Army Maintenance System-Enhanced (Maintenance)
SAMS-E provides Army users and logistics personnel with easy access to day-to-day
weapon systems, subcomponent readiness status, and maintenance and repair parts
information and facilitates their associated management functions. SAMS-E applications
are part of the Army’s portfolio of automated logistics and integrated systems.

Asset Tracking Logistics and Supply System (Inventory)
ATLASS provides life-cycle support services for Marine Corps strategic, operational, and
tactical logistics systems to meet the needs of the Marine Operating Forces and the
Marine Corps Logistics community. It is a deployable, microcomputer-based supply
system that allows for control, distribution, and replenishment of equipment and supplies.




                                           31

Appendix F. Discussion of Management
Comments on the Introduction and Finding
USCENTCOM, Army Medical Command, and the Defense Logistics Agency provided
comments on the Introduction and Finding sections of the report. The additional
comments and our responses that were not addressed at the end of the Finding are shown
below. The full text of USCENTCOM, Army Medical Command, and Defense Logistics
Agency comments are in the Management Comments section following the Appendices.

U.S. Central Command Comments
The Chief of Staff, USCENTCOM provided comments on the Finding and stated that
USCENTCOM did not agree with the Joint Medical Technology Assessment Review
Team finding that a medical logistics analysis was needed to provide better support. The
Chief of Staff also stated that the audit did not uncover any substantive research to
validate the assessment review team finding.

Army Medical Command Comments
The U.S. Army Medical Command Chief of Staff commented on the Finding and
suggested that our comment on the Joint Medical Technology Assessment Review be
modified. The Chief of Staff also stated that the joint review provided a comprehensive
report that forms the basis for the life-cycle management program currently being used to
reset theater-provided equipment.

Our Response
In the Management Initiatives section of the Finding, we stated that USCENTCOM
established the assessment review team to conduct a series of surveys across the
USCENTCOM AOR. We also stated that the assessment review team issued a finding
that a logistical supply analysis was needed and that use of DMLSS would provide a
robust capability to properly manage medical equipment. USCENTCOM did not agree
that a medical logistics analysis was required to provide better support. The intent of the
section was to include a brief synopsis of the USCENTCOM’s management initiative
involving the life-cycle management of medical equipment in the USCENTCOM AOR.
We presented a portion of the assessment review team results and did not validate the
assessment review team finding. We revised the management initiative to acknowledge
USCENTCOM did not agree with the review team conclusion that a medical logistics
analysis was needed.

Defense Logistics Agency Comments
The DLA Acting Senior Procurement Executive provided comments from the Directorate
of Medical Materiel, Defense Supply Center Philadelphia on the Introduction and Finding
sections, stating that the report did not adequately describe assumptions and conclusions
to support the description of MTF sustainment operations. He also stated that the




                                            32

requirement for a troop support planner at the theater lead agent has not been validated
and that the planner might be located at USCENTCOM.

Our Response
The information in the Introduction section of the report provides a brief description of
how the spectrum of care in theater has evolved from initially supporting young, healthy
U.S. and coalition forces to providing more complex medical services to U.S. and
coalition forces and other health care recipients. The enhanced level of care requires
medical equipment replacement or updating with equipment that is more permanent or
durable than what originally deployed to the USCENTCOM AOR. The equipment is
being upgraded and replaced with more complex equipment similar to that found in
MTFs in the United States. The complex combat casualty and sustainment mission
information was provided by each of the Army and Air Force MTFs we visited in the
USCENTCOM AOR. As a result of management comments, we revised the background
section of the introduction.

We contacted DLA regarding the troop support planner initiative. At the time of our
audit, DLA was pursuing a validated need for a troop support planner at the theater lead
agent. After the issuance of the draft report, we learned that a new requirement was
being considered to establish a troop support planner at the USCENTCOM headquarters
location. As a result of the discussion, we made the appropriate revision to the
Management Initiatives section of the Finding.




                                            33

Appendix G. Categories of Medical
Equipment Reviewed
To ensure continuity during the audit and to ensure coverage of medical equipment that
has a significant impact on the health care mission, we limited the scope of the audit to
certain categories of medical equipment. We selected medical equipment from the
following categories that was maintenance-significant, could be tracked in inventory and
procurement records, and was critical to the successful delivery of the health care
mission.

 Infusion Pumps                               Oxygen Generators
 Vital Signs Monitors                         Oxygen Concentrators
 Suction Units                                Ventilators
 Portable X-Ray Units                         Defibrillators
 Sterilizers                                  Anesthesia Units
 Digital Film Processors and Laptops          Electrosurgical Units
 High Capacity X-ray Units                    Ultrasound Units
 CT Scanners                                  Chemistry Analyzers
 C-Arms                                       Hematology Analyzers
 Fluid Warmers                                Lab Analyzers
 Operating Room Lights                        Dental Operating Units
 Dental Compressors




                                           34

U.S. Central Command Comments


                                            Final Report
                                             Reference




                 Click to add JPEG file




                                          Not included





                                35
                           Final Report 

                            Reference





                         Revised





Click to add JPEG file




               36
                           Final Report 

                            Reference





                         Revised
                         Page 12, 13




Click to add JPEG file




               37
Assistant Secretary of Defense (Health Affairs) Comments

                                                             Final Report
                                                              Reference




                                                           Revised 



                   Click to add JPEG file                  Revised 





                                  38
                           Final Report 

                            Reference





Click to add JPEG file




                         Revised





               39
Click to add JPEG file




               40
                           Final Report 

                            Reference





Click to add JPEG file




                         Replaced





               41
Assistant Secretary of the Navy (Manpower and Reserve
Affairs) Comments




                   Click to add JPEG file




                                  42
Click to add JPEG file




               43
                           Final Report 

                            Reference





                         Marine Corps
                         comments were
                         prepared for the
                         Marine Corps
                         Forces Central
                         Command by
                         Headquarters,
                         Marine Corps
                         Health Services
                         Department




Click to add JPEG file




                         Revised




               44
Click to add JPEG file




               45
Click to add JPEG file




               46
Click to add JPEG file




               47
U.S. Army Medical Command Comments





                 Click to add JPEG file




                                48
Click to add JPEG file




               49
Click to add JPEG file




               50
U.S. Army Central Command Comments





                 Click to add JPEG file




                                51
Click to add JPEG file




               52
Defense Logistics Agency Comments


                                             Final Report 

                                              Reference





                  Click to add JPEG file




                                           Revised 

                                           Page 3 





                                           Revised 

                                           Page 13





                                 53
Click to add JPEG file




               54
